<html>
<title> - PROTECTING THE JUDICIARY AT HOME AND IN THE COURTHOUSE</title>
<body><pre>[Senate Hearing 109-57]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-57

         PROTECTING THE JUDICIARY AT HOME AND IN THE COURTHOUSE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 18, 2005

                               __________

                          Serial No. J-109-15

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
22-222                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
                       David Brog, Staff Director
                     Michael O'Neill, Chief Counsel
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas, 
  prepared statement.............................................    58
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     2
    prepared statement...........................................    60
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    63
Kennedy, Hon. Edward M., A U.S. Senator from the State of 
  Massachusetts, prepared statement..............................    79
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    81
Schumer, Hon. Charles E., A U.S. Senator from the State of New 
  York...........................................................     4
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Alba, Samuel, Chief, U.S. Magistrate Judge, District of Utah, 
  Salt Lake City, Utah...........................................    20
Lefkow, Joan Humphrey, U.S. District Judge, Northern District of 
  Illinois, Chicago, Illinois....................................     6
Obama, Hon. Barack, a U.S. Senator from the State of Illinois....     4
Reyna, Benigno G., Director, U.S. Marshals Service, Department of 
  Justice, Washington, D.C.......................................    16
Roth, Jane R., Judge, U.S. Court of Appeals for the Third 
  Circuit, and Chair, Committee on Security and Facilities, 
  Judicial Conference of the U.S., Philadelphia, Pennsylvania....    14
Widup, Kim Richard, U.S. Marshal, Northern District of Illinois, 
  Chicago, Illinois..............................................    18

                       SUBMISSIONS FOR THE RECORD

Alba, Samuel, Chief, U.S. Magistrate Judge, District of Utah, 
  Salt Lake City, Utah, prepared statement.......................    30
Association of Administrative Law Judges, Ronald G. Bernoski, 
  Milwaukee, Wisconsin, prepared statement and attachment........    40
Fine, Glenn A., Inspector General, Department of Justice, 
  Washington, D.C., prepared statement...........................    65
Lefkow, Joan Humphrey, U.S. District Judge, Northern District of 
  Illinois, Chicago, Illinois, prepared statement................    83
McQueen, Mary, President, National Center for State Courts, 
  Arlington, Virginia, prepared statement........................    88
Reyna, Benigno G., Director, U.S. Marshals Service, Department of 
  Justice, Washington, D.C., prepared statement..................    97
Roth, Jane R., Judge, U.S. Court of Appeals for the Third 
  Circuit, and Chair, Committee on Security and Facilities, 
  Judicial Conference of the U.S., Philadelphia, Pennsylvania, 
  prepared statement and attachments.............................   111
Schuck, Thomas R., President, Federal Bar Association, 
  Washington, D.C., prepared statement...........................   133
Widup, Kim Richard, U.S. Marshal, Northern District of Illinois, 
  Chicago, Illinois..............................................   136

 
         PROTECTING THE JUDICIARY AT HOME AND IN THE COURTHOUSE

                              ----------                              


                        WEDNESDAY, MAY 18, 2005

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 8:32 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Arlen 
Specter, Chairman of the Committee, presiding.
    Present: Senators Specter, Kyl, Leahy, Schumer, and Durbin.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. The Judiciary Committee will now proceed 
with our hearing on Protecting the Judiciary at Home and in the 
Courthouse.
    On February 28th of this year, an angry litigant--that is 
the characterization of Judge Joan Humphrey Lefkow--shot and 
killed Judge Lefkow's husband and aged mother. On March 14th, I 
wrote to the Director of the U.S. Marshals Service to find out 
what security measures were in practice and what would be 
instituted following the terrible tragedy in Chicago. On April 
11th, the Department of Justice responded that they were 
looking at the judicial facilities and off-site security, but 
nothing more than that.
    In the emergency supplemental recently passed, $11.9 
million was appropriated for judicial security. On May 6th, I 
met with Third Circuit Judge Jane Roth, who is Chair of the 
Committee on Facilities and Security for the Judicial 
Conference of the United States.
    There is no doubt that the rule of law is the backbone of 
our civilized society. The capability of the judiciary to 
determine the rule of law without fear or favor is an 
indispensable prerequisite in our democratic society. Personal 
security, along with judicial independence, must be safeguarded 
at all costs.
    I intend to be very brief in my opening statement because 
every day on Capitol Hill is a busy day. This is more so 
because at 9:30 the Senate will start to consider the 
nomination of Texas Supreme Court Justice Priscilla Owen for 
the Court of Appeals for the Fifth Circuit, and it will 
inevitably implicate the so-called constitutional or nuclear 
option, so that a number of us will have to excuse ourselves, 
but the hearing will proceed in full.
    Judge Jane Roth was quoted in the Chicago Tribune yesterday 
with some of the same comments that she made to me when I met 
with her earlier this month that in contacts with the 
Department of Justice on judicial security, Judge Roth said, 
quote, at least quoted, ``I think the Department of Justice 
feels that it is none of our business.''
    In conversations with a ranking Department of Justice 
official, Judge Roth again is quoted, ``I told him we needed 
that information. He said it would be one independent branch 
meddling with another independent branch--separation of 
powers.'' Well, fortunately, there is a third branch. It is 
called the Congress, and the Congress intends to act.
    Without going into a litany of studies which raise serious 
questions about the adequacy of the Marshals Service--and we 
have the officials here today, some of them, but this matter 
will go to the Attorney General ultimately, who has 
responsibility.
    A report issued by the Inspector General of the Department 
of Justice in March of last year found that the U.S. Marshals 
Service threat assessments are, quote, ``untimely and of 
questionable validity,'' and that the U.S. Marshals Service 
has, quote, ``limited capability to collect and share 
intelligence, and lacks adequate standards for determining 
appropriate protective measures.''
    This Committee will act, Judge Lefkow, and I can assure you 
that the Congress will act. And there will be no talk about 
separation of powers. We have the authority to provide adequate 
security for judges and we are determined to do just that.
    Let me yield now to my distinguished ranking member, 
Senator Leahy, unless he wishes to yield to--
    Senator Leahy. Mr. Chairman, I am going to yield to Senator 
Durbin, who has been also such a leader in this and has 
expressed, as has Senator Obama, the feeling of his own State 
on this tragedy, a feeling joined by others. So I just ask 
consent that my statement be part of the record.
    Chairman Specter. Your statement will, without objection, 
be made part of the record.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Chairman Specter. I am delighted now to recognize Senator 
Durbin, who discussed this entire matter with me shortly after 
February 28th, and we took the initial steps at that time, he 
and I, to proceed to where we are today with this hearing.
    Senator Durbin.

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Thank you very much, Chairman Specter. On 
behalf of Senator Obama, who is here today and will speak, and 
myself, I want to thank you for convening this hearing. I want 
to commend you for your leadership on this critical issue of 
judicial security, and I want to thank you as well for helping 
us secure an appropriation of $12 million to dedicate initially 
to this issue of judicial security.
    The gruesome crimes that were perpetrated against Judge 
Lefkow's family on February 28th, as well as the crimes against 
a judge and other court officials in Atlanta a few weeks later, 
were attacks not only on innocent people, but on the Federal 
judiciary itself. Three Federal judges have been assassinated 
since 1978. Never, never before has a Federal judge's family 
been a victim of these crimes. We must provide more protection 
for our judges and their families so that others will be spared 
the tragedy that Judge Lefkow and her family have been forced 
to endure.
    I am not going to go into detail here because I know we are 
anxious to hear from the judge. I do believe that we must make 
substantial changes in the Federal Marshals Service to meet 
this new challenge, and we will discuss those this morning.
    I am pleased that the Congress has accepted the amendment 
that Senator Obama, Senator Kennedy and I offered to 
appropriate $12 million for the Marshals Service to improve 
protection of Federal judges. I also think that we have to be 
careful in what we say. I know that we believe passionately in 
free speech in this country, but I believe that many public 
officials, both elected and otherwise, have made verbal attacks 
on the Federal judiciary which we should not tolerate. They are 
reprehensible. I will not list them. You have heard them. Some 
will be referred to during the course of this hearing.
    At this moment, Mr. Chairman, I would like to welcome Judge 
Lefkow and her daughters to the Judiciary Committee. I want to 
acknowledge the family of Judge Lefkow's husband, Michael. I 
know his two sisters and niece are here as well. It is an act 
of tremendous courage for them to be here.
    I know Judge Lefkow has declined many speaking invitations 
and interviews, but she felt that the U.S. Senate Judiciary 
Committee was an appropriate forum to discuss her tragedy and 
to help us find ways to prevent such tragedies from happening 
again.
    A few weeks ago, I met with the judge in my Chicago office 
and I said to her, Joan, if you don't want to do this for any 
reason, I fully understand. She said, I want to do this. And I 
admire your courage so much in making this decision.
    I am honored to introduce Judge Lefkow today not only 
because she is a constituent of mine, but also because I 
recommended her nomination for the Federal bench five years 
ago. The last time she was in this hearing room in June 2000, I 
introduced her to the Committee and said Judge Lefkow has a 
rare combination of intelligence, professional experience, 
temperament and devotion to public service. She is going to be 
an excellent Federal judge.
    Well, my prediction turned out to be true. She has served 
not only with excellence, but with bravery and distinction. 
Even before the heart-breaking tragedy she recently suffered, 
she incurred death threats in multiple cases involving high-
profile parties. Nevertheless, she has been a noble public 
servant and she has persevered.
    Judge Charles Kocoras, Chief Judge of the U.S. District 
Court in the Northern District, wrote a letter to me a few 
weeks and here is what he said about Judge Lefkow, quote, ``The 
sweetest Federal judge I have ever met, and whose own sense of 
fairness is a model for the world.'' Boy, that is high praise. 
We are extremely fortunate to have Judge Lefkow on the Federal 
bench in Chicago. We are honored to have her with us today.
    I know that my colleague, Senator Obama, is here to say a 
few words, and I would defer to you now, Mr. Chairman.
    [The prepared statement of Senator Durbin appears as a 
submission for the record.]
    Chairman Specter. Thank you, Senator Durbin.
    Senator Schumer. Mr. Chairman, I just wanted to say a brief 
word here.
    Chairman Specter. Senator Schumer.

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Thank you, Mr. Chairman. I will be brief.
    I too want to just thank you, Judge Lefkow, for coming 
here, for your strength. When we face tragedy, it is easy to 
just curse the darkness, and you are trying to shed some light 
and we all very much appreciate that. We have never met before, 
but the pain and the strength and the sadness on your face, I 
think, speaks volumes.
    I note in your testimony, which I have read, that you talk 
about all of this debasing of the Federal judiciary in rather 
nasty terms. We all know that judges have faced threats all 
along. I mean, we have in New York a unit of the police 
department which has to often guard judges because of threats, 
almost all of them in non-political cases, but because it is 
the criminal justice system. Being a judge is not easy and it 
is sometimes dangerous.
    But when in the public dialogue it becomes acceptable just 
to debase judges in virulent and nasty terms, it sure doesn't 
help the independence of the judiciary or the ideals that 
America stands for. I note in your testimony that you ask that 
these kinds of things stop and be denounced readily and 
quickly. If you don't denounce them, they develop into a more 
virulent form. That has been what history shows us.
    I just hope we can begin to see that here in Washington 
that when people step over the line and talk about judges in 
ways that you shouldn't talk about any human being, let alone 
people who are supposed to guard our independence, that united 
from one end of this town to the other we just say that has no 
place in our dialogue. That has happened yet. Maybe your being 
here will importune it to happen.
    Chairman Specter. Thank you, Senator Schumer.
    We now recognize Senator Obama for an introduction of the 
judge.

 STATEMENT OF HON. BARACK OBAMA, A U.S. SENATOR FROM THE STATE 
                          OF ILLINOIS

    Senator Obama. Thank you very much, Mr. Chairman, Senator 
Durbin, Senator Schumer. I very much appreciate this 
opportunity just briefly to introduce Judge Lefkow. Senator 
Durbin has already given you some sense of her background.
    I begin by just, as others have, thanking her for her 
incredible courage for appearing before the Committee. I know 
that she is blessed to have her four daughters here, as well as 
other family members. And I am sure that I speak for the entire 
Senate when I say that our thoughts and prayers are with you, 
Judge, during this difficult period.
    As an attorney from Chicago, I am also familiar with the 
work that her husband, Michael, did. He himself was a tireless 
activist and advocate on behalf of the less fortunate, as well 
as a loving father, and so he is missed in the Chicago 
community.
    Your mother, Donna Humphrey, I am sure was extraordinarily 
proud of you and the family as well.
    We do a lot of talking here in Washington, but too often we 
don't discuss the issues that matter most. Protecting our 
judges is one of those issues, and so I commend you, Mr. 
Chairman, for calling this hearing with Senator Durbin.
    Judges have an extraordinarily difficult job. Everyday, 
they walk into that courtroom knowing that a decision they make 
could not only affect the lives of those appearing them, but 
the lives of millions who abide by our Nation's laws. Judges 
are brave public servants who believe that our laws are an 
expression of our shared responsibility to one another as 
Americans.
    Joan Lefkow epitomizes this commitment to public service 
ever since she became a magistrate judge in 1982. As Senator 
Durbin mentioned, even after her life was threatened, she 
returned to the bench because she believed that the work she 
did helped to ensure all of us the kind of society that we have 
come to take for granted.
    Unfortunately, no judge should ever worry that upholding 
the law might endanger them or their family. Senator Durbin and 
I, as has been noted, recently were able to secure $12 million 
in next year's budget to keep our judges safe, but more must be 
done. So I am looking forward to hearing this Committee's ideas 
and working with this Committee in the future.
    My final note, I guess, would be that this hearing 
hopefully can help us with the political dialogue that has been 
referred to in recent months and years. All too often, 
politicians have a tendency to speak about judges not as public 
servants, but as obstacles who stand between those politicians 
and their partisan agendas. This is not what our judges are. 
This is not what Judge Lefkow is.
    She is a judge whose chamber was decorated with her 
children's art work, a mother who prepared four separate meals 
to suit her daughters' difference tastes, a student who 
attended an evangelical college to follow in the footsteps of 
her pastor, and a public servant who has made upholding the law 
her life's work. We are grateful for that work. We hopefully 
will honor that work and the work of all Federal judges by the 
efforts in this Committee.
    I thank you so much, Judge, for taking the time to be here. 
You have my utmost respect and gratitude.
    Thank you very much, Mr. Chairman.
    Chairman Specter. Judge Lefkow, our Committee very much 
appreciates your presence. It is an enormously serious problem 
and your focus here will focus a great deal of attention not 
only on Capitol Hill, but in the country. And to repeat, the 
Congress will act to provide security for judges.
    Judge Lefkow has had a very distinguished career, has been 
a Federal judicial official since 1982. From 1982 until 1997, 
she was a U.S. magistrate judge in the Northern District of 
Illinois. From 1997, she served as a bankruptcy judge until the 
year 2000, when she was appointed to the United States District 
Judge for the Northern District of Illinois, where she serves 
at the present time. She has a bachelor's degree from Wheaton 
College and a law degree from Northwestern University Law 
School.
    Judge Lefkow, again, thank you for your being here and we 
look forward to your testimony.

   STATEMENT OF JOAN HUMPHREY LEFKOW, UNITED STATES DISTRICT 
    JUDGE, NORTHERN DISTRICT OF ILLINOIS, CHICAGO, ILLINOIS

    Judge Lefkow. Thank you, Mr. Chairman and members of the 
Committee. Thank you for your invitation to appear here today, 
and I do want to also thank you, Senator Durbin, for your great 
compassion that you have expressed to me and my family through 
this. I also would like to acknowledge the presence of Senator 
Dan Coates, who is an old friend of mine and was kind enough to 
come along and give me support today.
    I have prepared my statement and, with your indulgence, I 
will probably be reading quite a bit of it because it is 
difficult for me to get through this.
    I am the fourth judge since 1978 who has been the victim of 
an assassination as a result of what President Clinton wrote to 
me, ``the madness in the shadows of modern life''; more 
specifically, as a direct result of a decision made in the 
course of fulfilling our duties to do justice without fear or 
favor.
    Among more than 1,000 letters of condolence that my family 
received are approximately 200 from judges, State and Federal, 
who know--each of them know in their own heart ``this could 
have been me.'' Five assassinations--that includes two for me--
in 25 years tells us that judges are particularly vulnerable. 
By comparison--I looked into this--the last such tragedy within 
the Congress was in 1978, and that was on foreign soil. And it 
tells us that something is wrong in the judicial protection 
arena.
    Let me briefly tell you what this has done not only to me 
and my children, but to my extended family of brothers and 
sisters, nieces, nephews and others. As Senator Obama just 
mentioned, Michael was a man whose excellent character and 
accomplishments at the bar and as a family man have been 
described in many recent news reports and I will not attempt to 
recount them.
    On a personal level, however, he was a man who at the age 
of 64 looked to the future with hopefulness and anticipation. A 
litigant who was angry with me shot him in the head, and my 
aged mother, on February 28th of this year, for no reason other 
than that they were in his way on his road to murder me. He 
could have easily added my daughter, who is 16 years old and 
lived in our house, and me.
    2/28 is our own personal 9/11. Since 2/28, our family 
includes a daughter and her husband who have to explain to 
their young children why their grandfather is now with God and 
they will never see him again, two daughters who will not have 
their beaming father to walk them down the aisle at their 
weddings in the coming year, and two who will not have dad to 
be there to join the fun at their upcoming graduations from 
high school and college. From now on, they will have a father's 
guidance only through the memory of what he was to them.
    Michael's family includes, among others, four sisters and 
brothers, who have now lost their third sibling before the age 
of 65. An entire family has lost its ability to feel safe when 
we walk through the doors of our own homes. Beyond the family, 
there is a community of clients, friends, fellow church members 
and neighbors who simply miss this man and woman, who were a 
significant part of their lives in one way or another.
    The father who sent every report card to grandma so she 
also could rejoice in what the children accomplished is no 
longer there, and neither is the grandmother who made each of 
her 20 grandchildren and great grandchildren believe that that 
grandchild was her special favorite. Indeed, she was my 
children's only grandparent.
    Finally, I am the wife who wakes up in the morning not to a 
cup of coffee presented by my husband of 30 years to reopen 
what we called the endless conversation of marriage, but to an 
open book that I was reading in an effort to banish the 
memories of 5:30 p.m. on the day our world changed forever.
    I say all this not to garner sympathy or pity. We have been 
overwhelmed by the kindness of others and I could not begin to 
adequately express our gratitude. Rather, I come to you with a 
plea that you who have the power continue to make judicial 
protection a priority, as is reflected in the recent passage of 
H.R. 1268, which includes $12 million to the Marshals Service 
for increased security for Federal judges, specifically for 
home intrusion detection systems, and that you be vigilant in 
monitoring judicial security so that sympathetic feelings 
translate into something real for us. And I come to you with a 
plea that each of you exercise leadership to use your voices to 
support the vital role of judges in sustaining a society based 
on the rule of law instead of right being defined by might.
    I understand Congress can't eradicate all violence against 
judges, nor are we exempt from this madness in the shadows of 
modern life. But as I replay in my mind the events that led to 
our tragedy, I believe that several things might have prevented 
it and could prevent it from happening to even one more of our 
judges.
    The first is rapid distribution of the funds for home 
security systems. We, the judges, are very grateful that this 
money has been appropriated so rapidly and certainly appreciate 
it so much. Now, the judiciary, however, is concerned that all 
or part of this appropriation might be used to meet other needs 
of the Marshals Service. Obviously, had the Lefkow family had 
this system in our home, this horror could have been avoided.
    I hope that this Committee and the Senate will make it very 
clear to the Director of the Marshals Service, Mr. Reyna, your 
intent that this money be distributed to the judges in the 
field as quickly as the judiciary can make it possible, make 
the arrangements possible.
    As recently as last Friday, which was May 13th, I was 
spotted and harassed in a restaurant in downtown Chicago. Now, 
had that harasser come back rather than with a nasty sign and 
had a gun, obviously I wouldn't be here today to speak with 
you.
    I also urge your support for legislation that prohibits the 
posting of personal information about judges, as well as other 
public officials, on the Internet without their written 
consent. I had in my local court asked that some online 
research be done about each of the members of the Committee 
just to try to illustrate to you what is out there on the 
Internet free of charge or for a mere $20, and it is really 
shocking what can be found on the Internet.
    As some of you may have heard, during the late fall of 2003 
I became aware that I was being vilified on the Internet by a 
white supremacist organization that had a trademark case before 
me. As some may be aware, the circumstances resulted in 
prosecution and conviction of the principal of that group. I 
was labeled ``a probable Jew'' with ``mixed-race 
grandchildren,'' as if those were shameful things.
    But eventually my home address and other personal 
information were posted by this fringe group. The information, 
true and false, that was posted about me was readily available 
free of charge on the Internet. A small fee will give anyone 
who wants it access to Social Security numbers, loans, land 
transactions, the names of neighbors, and so forth. Although it 
may never be stopped entirely, this is a brave new world and I 
hope that something can be done to limit the commercial 
trafficking in such information which makes it out there for 
people to find.
    The third item for which the judiciary needs your support 
is adequate funding for adequate staffing of the United States 
Marshals Service. Others who are more knowledgeable than I, 
including Judge Roth, will be addressing you on these matters, 
and I also believe that you have been provided a letter that my 
Chief Judge, Charles Kocoras, wrote to you, Senator Specter, 
addressing these issues as well.
    This is my personal observation over the 22-plus years that 
I have worked in the Federal judiciary: There has been a 
reduction of support for the judges that corresponds with the 
increase in the demand for transportation of prisoners, 
apprehension of fugitives and other responsibilities associated 
with the federalization of criminal law.
    Although security is provided at all criminal case 
hearings, many officers are not trained U.S. Marshals, and on 
the civil side no security is provided unless the judge 
specifically requests it from an already strained district 
office. We need a trained deputy marshal present at all court 
hearings, criminal and civil, who can be our eyes and ears to 
identify and follow up on litigants who appear to be dangerous.
    How many times have I chastised myself for not recognizing 
this threat that became a reality? But this is neither my 
expertise nor do I believe it is appropriate that I should be 
thinking about whether someone is dangerous when I am trying to 
decide their case.
    In addition, my own experience with my current security 
detail suggests to me that there is a tremendous need for 
thinking and planning and training from the top of the Marshals 
Service. Let me be clear. I do not intend by these remarks to 
convey any criticism of either Marshal Kim Widup of the 
Northern District of Illinois, nor any individual deputy whom I 
have encountered on my protection detail since February 28th.
    Starting with the team who swept a shaken, disbelieving 
family into protective custody on that awful night, these 
deputies were the knot at the end of our rope for weeks, and 
not one of them has been anything but compassionate, available 
and committed beyond the call of duty. This has been a 
sacrifice for the entire Service, of course, as districts who 
have lent deputies for my detail are even more short-handed in 
their own locales than they were under normal circumstances.
    It is easy enough to blame the Service for problems, but 
the truth is that the Congress has never treated the U.S. 
Marshals as it has, for example, the Federal Bureau of 
Investigation, giving it the respect and resources that it 
needs to fulfill the tremendous responsibilities that it has.
    The more that I learn about what is in place for judicial 
protection in the Marshals Service, the less sanguine I am that 
judicial security is anything but an ad hoc response to 
individual requests, and this is very disturbing to me.
    Judges do not invite anyone to file a lawsuit. The cases 
come to us because the prosecutor and individual or corporation 
is convinced that the court will protect the rights that they 
believe are granted to them by the Congress and the 
Constitution. Neither do we choose the issues. I know many 
judges who welcome the--I am sorry. I will back up here. Let me 
just start back. I am sorry. I skipped a little bit.
    Chairman Specter. Judge Lefkow, just take your time. You 
are fine.
    Judge Lefkow. Okay. My final point--and it really follows 
directly from the whole issue about the Marshals Service--is 
that I would ask the members of this Committee who are 
particularly committed with responsibility for the judiciary to 
publicly and persistently repudiate gratuitous attacks on the 
judiciary, such as the recent statement of Pat Robertson on 
national television, and unfortunately some members of the 
Congress, albeit in more measured terms. We need your help in 
tempering the tone of the debates that concern the independence 
of the judiciary.
    I have come to know scores of judges during my 22 years as 
a magistrate judge, bankruptcy judge and district judge. 
Whether liberal or conservative, I have never encountered a 
judge in the Federal judiciary who can remotely be described as 
posing a threat, as Mr. Robertson said, ``probably more serious 
than a few bearded terrorists who fly into buildings.''
    In this age of mass communication, harsh rhetoric is truly 
dangerous. It seems to me that even though we cannot prove a 
cause-and-effect relationship between rhetorical attacks on 
judges in general and violent acts of vengeance by a particular 
litigant, the fostering of disrespect for judges can only 
encourage those who are on the edge or on the fringe to exact 
revenge on a judge who displeases them.
    As I was saying, we don't invite the cases. The cases come 
to us. These decisions can be very difficult, decisions such as 
whether a man's heinous crime was a result of inability to 
understand the nature of his acts, or whether a decision by the 
next of kin to remove a feeding tube from a living human being 
should or should not be honored, or whether termination of a 
collectively-bargained pension plan is lawful. We call this 
winning and losing, but the terms are inadequate. This is never 
a game. These cases entail enormous consequences for the 
individuals involved and emotions can be powerful in these 
situations.
    I would like to just remind you, although, Senator Specter, 
you have already said this--and I thank you for your words--my 
Chief Judge, Charles Kocoras, wrote this: ``No principle by 
which we live as Americans or govern and judge ourselves is 
worthier of greater respect and fealty than the doctrine of the 
rule of law. Respect for the rule of law and the civility it 
affords requires acceptance of the results the law ordains. If 
it comes to pass that [attacks on judges] are perpetuated 
because each person feels free in deciding for themselves what 
is right or just, then chaos and anarchy will not be far 
behind...''
    This very statement has been echoed by dozens of strangers 
in my mail. These ordinary citizens and voters understand what 
Judge Kocoras puts eloquently. This is the reason American 
judges are invited by developing democracies throughout the 
world to help establish an independent judiciary. Our system is 
the role model for the world. Without fearless judges, where 
are we as a Nation?
    I have no doubt that each of you is equally committed to 
this idea, but your voices as elected officials are magnified. 
Judges, by contrast, speak most often through our decisions. We 
need your leadership in this area, and the stakes are profound.
    Thank you, Mr. Chairman, for the opportunity to appear here 
today. I know that I speak for all my judicial colleagues 
throughout the Nation in expressing our appreciation for the 
time and attention that you are giving to our security needs, 
and it is very reassuring that you say that Congress will do 
something. I would be pleased to respond to any questions 
anyone would have.
    [The prepared statement of Judge Lefkow appears as a 
submission for the record.]
    Chairman Specter. Well, thank you very much, Judge Lefkow. 
Just a few questions.
    You made a comment about an incident where you were 
harassed in a public restaurant. What kind of security are you 
now getting?
    Judge Lefkow. I have a full protection detail and they were 
present with me, yes.
    Chairman Specter. You made a comment about an incident 
involving white supremacists. Had you requested security 
protection at that time?
    Judge Lefkow. I had security protection for a couple of 
days about the time that this gentleman was to be arrested and 
during the court hearings. I did not have protection 
thereafter, no, and I want to make sure that it is understood 
that I did not request it or demand it. But if I could use this 
as an opportunity to say that I think the judges don't really 
know--it is not our expertise to know when we need protection. 
That is why I think we need someone in the Marshals Service or 
we need the Marshals Service to really study and analyze this 
issue as law enforcement people to help us understand, yes, you 
need protection.
    Chairman Specter. Judge Lefkow, my suggestion to you and 
your fellow judges would be not to be reluctant about 
requesting protection. It is true that you are not an expert in 
the field, and it may be that you feel a certain reluctance to 
have resources attached to your security, leaving it to 
somebody else. But the squeaky wheel gets the oil and there has 
been enough experience so that you are well within your rights 
and well within your prudence to ask for it.
    Tell us just a little bit more about what happened on this 
white supremacist case, what the circumstances were and what 
were the indicators that there could have been a problem and 
why you were only given protection for a couple of days.
    Judge Lefkow. The case was a very non-controversial case. 
You would never call it a, quote, ``heater'' case or high-
profile case. It was a trademark case. I began to learn about 
this happening when the opposing party to this supremacist 
organization was attaching copies of e-mail print-outs in the 
papers that were sent to me.
    By December of 2002, the United States Attorney, Patrick 
Fitzgerald, came to visit me and told me that there was a 
threat against my life. And he also told me that there was, 
shall we say, a mole or an inside informant in the 
organization.
    Chairman Specter. A threat against your life?
    Judge Lefkow. Pardon me?
    Chairman Specter. A threat against your life?
    Judge Lefkow. Yes, yes.
    Chairman Specter. Well, it seems to me that would require 
some immediate protection from the Marshals Service. Did you 
get it?
    Judge Lefkow. He asked me--Mr. Fitzgerald asked me if I 
wanted protection, and based on what he said to me, I said, 
well, if they get my home address, let's talk about this again. 
But as far as I knew, they didn't know where I lived. And, you 
know, it is difficult for me to talk about this because I can 
say, you know, if I had done this, if I had done that, this 
might not have happened.
    But I never spoke--well, that is not true. The Marshals 
Service knew about this and I suppose--I don't know, I don't 
know. The way it was presented, I don't feel that there was any 
system in place. It was just very much a local thing, and I 
knew that our Marshals Service couldn't even get the prisoners 
to court on time.
    Chairman Specter. Judge Lefkow, I can fully understand your 
saying you don't know, but when the U.S. Attorney reports a 
threat, the U.S. Attorney ought to take the initiative to see 
that you have protection. And when you say the Marshals Service 
knew about it, they should take the initiative to give you the 
protection. A threat against your life is no minor matter and 
it should not be your burden to have to ask for it or insist on 
it because of the natural reluctance that someone in your 
position would have.
    There are going to be a lot of people listening to your 
testimony, Judge Lefkow, and I would conclude--my red light is 
about to go on--with an urging of Federal judges or anyone who 
is subject to these kinds of threats not to be reticent.
    Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman.
    Judge Lefkow, thank you. I am glad you are here today. I am 
glad your family is with you to be part of this testimony.
    Since the tragedy that you have lived through, I have had 
conversations with several of your colleagues on the bench. One 
or two called me and a few others I ran into and talked to, and 
they were stunned by what happened to you and then stepped back 
and realized how vulnerable they were. They started looking at 
the world and their jobs a lot differently.
    Without naming names, can you relate some of the 
conversations that you have had with your colleagues concerning 
their fears and their concerns?
    Judge Lefkow. Well, one of my colleagues said that they had 
a home security system installed and they hadn't been entirely 
vigilant about making sure it was on all the time, but 
obviously now it is on. I think it was just a tremendous--a 
wake-up call is not the right word. It was much more than that. 
It is like being run over by an 18-wheeler when this happens to 
one of your colleagues.
    Judge Kocoras has been very supportive and strong, and he 
really has come out in favor of having a trained marshal at all 
court hearings. I think we are all concerned that we--everyone 
understands you need protection in criminal cases, but the 
civil cases--and indeed the judges who have been killed, they 
have all been civil cases where desperate people believe that 
they will find justice in Federal court.
    They have been through the State courts, they have been 
turned down. They think my civil rights will be protected in 
Federal court. And then if, as in my case, I dismiss a case for 
lack of jurisdiction, it is an easy decision for me on that 
level because it was clear as a matter of law, but for this man 
it was the end of the road for him in terms of a peaceable 
solution to his problem.
    Senator Durbin. I might just add, Mr. Chairman, that after 
the identity of the murderer was disclosed, we realized that he 
had come to our office with the same file, in desperation. That 
doesn't happen frequently, but it happens, and I can understand 
why you stepped back and had to measure is this a real threat 
or is this what you can expect in the course of business that 
wouldn't be something of major concern.
    So for your life, it has been changed dramatically, but for 
your colleagues on the bench, do you believe they are prepared 
to accept the changes that their lives would have to see if 
they moved forward with more security and more protection for 
their families?
    Judge Lefkow. I do, I do. They want it. That is what I am 
hearing. They want it.
    Senator Durbin. And what you said loud and clear was this 
$12 million that Senator Obama and I worked for--you want to 
see that money as quickly as possible come through and be made 
available for home security systems for the judges that want 
it.
    Judge Lefkow. Yes. As I understand it, though, that money 
is not necessarily earmarked for this purpose and we are 
hopeful we can work with the Marshals Service. But I just hope 
that everyone will understand that that is what the money is 
needed for now.
    Senator Durbin. And, of course, I think Senator Obama and I 
both feel that that is what we want done, and we will work with 
you in that regard.
    The last point you went into is a delicate one because of 
our constitutional protection of free speech. People can say 
what they want to say and that is part of America. But some of 
the comments that you referred to from Reverend Robertson and 
some of the members of Congress clearly went over the line. To 
say that judges are a greater threat to America than bearded 
terrorists is sadly an incendiary remark which Mr. Robertson 
should have known better than to make that kind of remark.
    I just want to say that he has the right to say what he 
believes, but you are correct in arguing that all of us, 
regardless of party, liberal, conservative, should be 
denouncing these remarks as totally irresponsible.
    Judge Lefkow. I agree with you.
    Senator Durbin. Thank you and your family for being here 
today.
    Chairman Specter. Thank you, Senator Durbin.
    Senator Obama, would you care to ask a question or make a 
further comment?
    Senator Obama. Mr. Chairman, I very much appreciate you 
just allowing me to hear this testimony. I thought Judge Lefkow 
was incredibly eloquent under extraordinarily difficult 
circumstances, and I would just urge that we take this 
extraordinarily seriously and underscore maybe one point that I 
heard.
    As Senator Durbin indicated, in our interactions with the 
public oftentimes we have people come in who are in difficult 
straits, having a difficult time, display erratic behavior. 
Part of our job as public servants, I think, is to try to treat 
everybody who comes through our doors with respect.
    So I am just very sympathetic to the fact that Judge Lefkow 
may not be in a position to evaluate threats any more than I 
would be in these circumstances, and I just want to underscore 
the point that the initiative is going to need to come from the 
professionals. Obviously, all of us are now more mindful of the 
possibilities of these threats and will be on higher alert, but 
ultimately we have got to set up some systems and some 
structures whereby these threats are evaluated and appropriate 
protective steps are taken. My hope is that the Marshals 
Service, through not only additional money but additional 
planning and foresight, will be able to put such systems in 
place.
    So, Judge Lefkow, I just thank you again for your wonderful 
testimony. It is very much appreciated.
    Mr. Chairman, thank you for allowing me to participate.
    Chairman Specter. Thank you, Senator Obama.
    Thank you very much, Judge Lefkow. We appreciate your 
family coming and we appreciate our former colleague, Senator 
Dan Coates, being with you as a longstanding friend.
    We turn now to the second panel: Judge Jane Roth; U.S. 
Marshals Services Director Benigno Reyna; the Marshal for the 
Northern District of Illinois, Kim R. Widup; and Judge Samuel 
Alba, United States Magistrate Judge for the District of Utah.
    Judge Roth is testifying today in her capacity as Chair of 
the United States Judicial Conference's Committee on Security 
and Facilities. She has been on the U.S. Court of Appeals for 
the Third Circuit since July of 1991 and had been a Federal 
judge in the District of Delaware from November 1985 until her 
appointment to the Third Circuit. She has a bachelor's degree 
from Smith College and a law degree from the Harvard Law 
School.
    Regretfully, I am going to have to excuse myself at this 
point. I will be following the testimony very closely. I have 
met with Judge Roth, as I stated before when earlier this month 
she and former Chief Judge Edward R. Becker and I sat in 
Philadelphia and talked over these issues.
    This hearing started very early, as you all know, because 
we had expected a mark-up on asbestos at 9:30. On Capitol Hill, 
one thing consistently trumps something else and the current 
consideration of Texas Supreme Court Justice Priscilla Owen is 
the number one item on the agenda because, as I noted earlier, 
it implicates the potential for the so-called constitutional or 
nuclear option. I regret that more of our colleagues couldn't 
be here, but it is a very busy place, and I can assure you that 
there will be a lot of attention paid to the transcript here.
    My distinguished colleague, Senator Sessions, has just 
arrived without an opportunity for me to ask his favor of 
presiding at the hearing, but I saw that our two counsel talked 
to him.
    May I now turn the gavel over to you, Senator Sessions?
    Senator Sessions. Mr. Chairman, I would be honored to do as 
well as I can in your absence.
    Chairman Specter. Well, I am sure you will be exemplary, as 
always. Thank you very much.
    Senator Sessions [presiding.] Judge Roth, it is an honor to 
be before you.

   STATEMENT OF JANE R. ROTH, JUDGE, UNITED STATES COURT OF 
APPEALS FOR THE THIRD CIRCUIT, PHILADELPHIA, PENNSYLVANIA, AND 
     CHAIR, COMMITTEE ON SECURITY AND FACILITIES, JUDICIAL 
                CONFERENCE OF THE UNITED STATES

    Judge Roth. Well, our paths have crossed many times over 
the years and it is a great pleasure for me to be here today to 
testify before you.
    As Chair of the Judicial Conference Committee on Security 
and Facilities, I want to thank you for calling this important 
hearing. I would particularly like to thank my colleague, Judge 
Joan Lefkow, for her willingness to be here today and to share 
with you the personal tragedy which she recently experienced. I 
also want to thank Magistrate Judge Sam Alba for being here 
today. The testimony and personal experience of these judges 
reinforces my view that the manner in which security is 
provided to the judiciary is unsatisfactory.
    Simply put, we have an ongoing crisis in the relationship 
that exists between the judiciary, the United States Marshals 
Service and the Department of Justice. In a word, the 
relationship is dysfunctional. Unfortunately, it affects the 
security of judges, of their families and of everyone in the 
courthouse. It is a very serious matter, as Judge Lefkow's 
presence here today indicates.
    I say this in spite of the dedication and hard work of the 
marshals serving in courthouses throughout the country. The 
problem is here in Washington, not out in the courts, where 
marshals work tirelessly to make do with inadequate resources. 
Despite the fact that judges are subject to an increasingly 
hostile environment, the judiciary is not able to participate 
in a meaningful way with the Marshals Service and the 
Department of Justice to ensure adequate resources for judicial 
security.
    Right now, the judiciary is excluded from three key areas--
policy, planning and budget--in the determination of the need 
for resources. Our requests to examine staffing levels have 
been denied. Our requests to participate in the determination 
of adequate staffing levels have not been honored.
    Within that context, we need answers to the following 
questions. What policies are in place that govern how and when 
protective details will be assigned to judges and their 
families? What criteria are used in threat assessments? How are 
decisions about competing resource needs resolved? What is the 
process that establishes Marshals Service staffing levels for 
court security? Are these staffing levels being met? How are 
long-term resource needs determined and planned for?
    These processes should be transparent and not exclude the 
client to whom the services are provided. We need a meaningful 
place at the table if there is to be any real accountability 
for judicial security. I believe that legislation is the only 
acceptable solution to the problem. I say this because of the 
repeated failure of the Marshals Service and the Department of 
Justice to respond meaningfully to our requests for answers.
    I have provided you and your staff with draft language that 
is simple and straightforward. The proposed language would 
require the Marshals Service and the judiciary to jointly 
submit to Congress 180 days after the date of enactment a 
report that states what the security needs of the judiciary are 
and how they are to be addressed. Such a report will greatly 
assist your Committee in exercising its oversight 
responsibility over the judiciary's security requirements, and 
it will serve as a vehicle for bringing the judiciary and the 
Department of Justice together in a more productive 
relationship.
    I would also like to thank you and the rest of the Senate 
for providing almost $12 million for judicial security, 
including home alarm systems for judges. This bill was recently 
signed into law by President Bush. It is worth noting that this 
request for home alarm systems came from the judiciary, not 
from the Marshals Service.
    In the bill, this amount specifically included home 
security systems. The judiciary needs to start planning now 
with the Marshals Service for its implementation. We are 
concerned that the Marshals Service is not prepared to do so 
now. We want to start today.
    Today's hearing reflects your appreciation for the 
seriousness of the issue. We hope you will support our request 
for legislation that will result in judicial security decisions 
being made in a more rational, realistic and collaborative 
fashion.
    Thank you. I will be happy to answer any questions that the 
Committee may have.
    [The prepared statement of Judge Roth appears as a 
submission for the record.]
    Senator Sessions. Thank you, Judge Roth. We take seriously 
the comments that you have made.
    Our next witness is Mr. Ben Reyna. He was appointed by 
President George Bush to serve as Director of the United States 
Marshals Service on October 29, 2001. He began his law 
enforcement career in 1976 with the Brownsville Police 
Department in the city of Brownsville, Texas. During his 25-
year career, he rose through the ranks and served six years as 
chief of police in Brownsville.
    In 1997, he was appointed to the Texas Commission on Law 
Enforcement Officer Standards and Education by then-Governor 
Bush. He was appointed presiding officer in 2000, where he 
served until is current position. He has served in various 
positions for many Federal programs, including from 1998 to 
2001 as regional law enforcement technology expert with the 
Counter-Drug Technology Assessment Center, which is part of the 
White House Office of National Drug Control Policy, and as law 
enforcement adviser to the Law Enforcement Coordinating 
Committee in the United States Attorney's Office for the 
Southern District of Texas.
    He received his bachelor's degree in criminal justice from 
the University of Texas-Pan American and he is a graduate of 
the Federal of Bureau of Investigation National Academy in 
Quantico, Virginia.
    Mr. Marshal, we are delighted to have you with us and would 
be pleased to hear your comments at this time.

STATEMENT OF BENIGNO G. REYNA, DIRECTOR, UNITED STATES MARSHALS 
        SERVICE, DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Mr. Reyna. Thank you, and good morning, Mr. Chairman. I 
certainly want to also thank the prior members of the Committee 
who were here earlier. I want to thank you for the opportunity 
to appear before you today. I appreciate the support that you 
have given the United States Marshals Service in the past, and 
we look forward to working with you in addressing the 
challenges we face in preserving the integrity of the judicial 
process.
    I am pleased to be joined this morning by the Honorable 
Jane Roth, Judge of the Third Circuit Court of Appeals; the 
Honorable Samuel Alba, Magistrate Judge, District of Utah; and 
United States Marshal of the Northern District of Illinois, the 
Honorable Kim Widup. I am proud to be here today to represent 
the thousands of dedicated deputy marshals and law enforcement 
professionals who make up this country's oldest Federal law 
enforcement profession.
    The protection of the judiciary is one of the most 
important functions in American Government. If Federal jurists 
are to preside over cases and render verdicts free from fear of 
threat and intimidation in a safe environment, then judicial 
security must continue to be a priority for our Government. A 
secure judiciary is fundamentally necessary in the preservation 
of justice, in maintaining the rule of law and in protecting 
the rights of all citizens.
    While the judicial security mission traditionally has been 
defined as protection of Federal judges and the physical 
protection of Federal courthouses, the full resources of the 
Marshals Service are devoted to the protection of the judicial 
process.
    We are an agency steeped in history and service and we 
stand proud of our record. Each day, the men and women of the 
Marshals Service place their lives on the line to carry out 
this agency's primary mission--protecting the integrity of the 
judicial process of this great Nation. We do this in many ways, 
many of which the public will never hear or think about. Please 
allow me to give you some examples.
    Today, somewhere in the Northeast, we will pick up a 
Federal judge who is under our protection and safely take them 
to court. Then at the end of the day, we will take him home 
again, ensuring his safety. Today, in Chicago, deputy United 
States marshals will produce 18 defendants in front of a judge 
in is courtroom in the Dirksen Building. Many of these 
defendants are accused of violent acts, and the safety of the 
judge on the bench and everyone in that courtroom will be 
maintained by deputy United States marshals.
    Today, we will screen countless visitors in Federal 
courthouses all across this country, and the safety of judges, 
lawyers, witnesses, jurors and court personnel will be 
maintained by deputy United States marshals. As we speak, from 
Oklahoma City alone, the United States Marshals Service's air 
fleet is flying more than 400 criminal defendants en route to 
courtrooms in cities all across this Nation. Both the 
defendants and judges that they will appear before will be 
protected by deputy United States marshals.
    How do I know this? I know this because in the Marshals 
Service we do this everyday. We do this while successfully 
completing the other missions which have been mandated to the 
Marshals Service by Congress. We investigate inappropriate 
communications, which include threats to judges, Federal 
prosecutors, witnesses and jurors. We do this an average of 60 
times a month as part of the judicial process.
    We continue to protect witnesses from intimidation and from 
threat of harm as they provide testimony that is critical in 
high-profile trials as part of the judicial process. We 
transport prisoners. In the past week, deputy United States 
marshals safely moved more than 6,000 prisoners all across this 
country as part of the judicial process.
    We arrest violent fugitives. In fact, last week we arrested 
638 defendants wanted on felony warrants issued by the court as 
part of the judicial process. As part of the judicial process, 
every single defendant in the Federal system goes through the 
United States Marshals Service, and on any given day we have 
over 50,000 prisoners in our custody. Most of this work is done 
with very little fanfare. It is work that doesn't make the 
news, but it is done with professionalism and it is vital to 
the judicial process in this country.
    Mr. Chairman and members of the Committee, I assure you 
that the men and women of the United States Marshals Service 
perform these duties and many others in a safe and secure 
manner and with the highest level of commitment each day. We 
appreciate your support in providing resources as we work with 
the Administrative Office of the United States Courts in 
enhancing outside security for members of the judiciary.
    My written testimony has been submitted to the Committee. I 
want to thank you again for your invitation and support of the 
Marshals Service, and I look forward to answering any 
questions.
    [The prepared statement of Mr. Reyna appears as a 
submission for the record.]
    Senator Sessions. Thank you, sir.
    Next, we will have Mr. Kim Widup, who is the United States 
Marshal for the Northern District of Illinois, one of our 
largest U.S. Marshal districts. Prior to his appointment, he 
was a supervisory special agent or criminal investigator at the 
Federal level for 25 years, specializing in public corruption, 
white-collar crime and complex criminal investigations.
    Among his many assignments, he was senior criminal 
investigator in the Office of the Inspector General's 
Headquarters Investigation and Protective Operations Division 
from 1992 to 1994, the lead investigator and supervisor to the 
Office of Independent Counsel investigating a former 
Agriculture Secretary, Assistant Special Agent in Charge for 
the Midwest Region of the Office of Inspector General in 
Chicago, and Chief of Investigations for the Whitewater 
investigation under Independent Counsel Robert Ray.
    Marshal Widup, we are delighted to have you here and hear 
your perspective on courthouse security, since where the rubber 
meets the road, I guess it is your responsibility there in the 
courthouses of the Northern District of Illinois.

STATEMENT OF KIM RICHARD WIDUP, UNITED STATES MARSHAL, NORTHERN 
            DISTRICT OF ILLINOIS, CHICAGO, ILLINOIS

    Mr. Widup. Yes, sir, and thank you, Mr. Chairman. Mr. 
Chairman and members of the Committee, thank you for the 
opportunity to appear before you today to discuss the role of 
the United States Marshals Service in protecting the Federal 
judiciary. It is vital to our democracy that those who work 
within our judicial system do so without any fear or 
intimidation.
    Recent tragic events in Chicago and Atlanta highlight the 
need for securing our courts and protecting those who work in 
them. I am a 26-year veteran of Federal law enforcement and 
have been the United States Marshal for the Northern District 
of Illinois since April 2002. I have personal knowledge of the 
important task of protecting judges and our judicial process, 
and I was serving as United States Marshal for the Northern 
District of Illinois when Bart Ross murdered the husband and 
mother of District Judge Joan Lefkow.
    During my law enforcement career, I have received many 
hours of protective operations training from the Federal Law 
Enforcement Training Center, the U.S. Secret Service and 
agency-sponsored courses. I supervised the protective detail of 
the Secretary of Agriculture and have been involved in the 
supervision of numerous protective assignments within the 
Marshals Service for the Northern District of Illinois.
    Since my appointment by President Bush to serve as U.S. 
Marshal, I have witnessed firsthand the vital importance of 
protecting our Federal judicial process. Just last month, 
members of my staff provided a safe and secure environment at 
the United States district courthouse in Chicago as white 
supremacist Matthew Hale was sentenced for his role in the 
solicitation of the murder of Judge Lefkow.
    We have recently had several violent street gang 
proceedings, and in the recent past the cases against an Iraqi 
intelligence officer and Al Qaeda financier Enaam Aranout, both 
of which required extensive security measures by my staff.
    Last year, we had the trial and sentencing of a defendant 
who was responsible for smuggling a handcuff key to Jeffrey 
Erickson approximately ten years ago. Erickson, in turn, 
murdered a deputy United States marshal and a court security 
officer before being fatally shot by the same court security 
officer.
    Because failure is not an option, our security planning and 
execution needs to be the very best it can be. I have an 
excellent relationship with United States Attorney Patrick 
Fitzgerald, as well as both the Chief Judge of the Northern 
District of Illinois and the Chief Judge of the Seventh 
Judicial Circuit. My chief deputy and I meet with them, the 
clerk of the court and others who have a stake in protecting 
the judicial process on an as-needed basis.
    Additionally, threats against our judges, U.S. Attorneys, 
Assistant United States Attorneys and others are brought to our 
attention on a regular basis either as direct threats or 
inappropriate communications. In the Northern District of 
Illinois, three deputy Marshals Service marshals are assigned 
full-time to investigate these potential threats.
    In our district, we also enjoy a close working relationship 
with our colleagues in the Federal Bureau of Investigation, the 
Joint Terrorism Task Force, the Chicago Police Department, the 
Cook County Sheriff's office, as well as other State, local and 
Federal law enforcement agencies. Because of these 
relationships, once a threat is received, a collaborative 
effort is undertaken to investigate and resolve the situation, 
to run every lead possible to get to the source of the 
situation.
    Throughout our 215-year history, the United States Marshals 
Service has given the highest priority to our judicial security 
mission and we are proud of our accomplishments. However, we 
must keep ever vigilant and ready. Judge Lefkow mentioned 
Friday night in Chicago while she was having dinner under the 
protection of the U.S. Marshals Service--she had a security 
detail that evening--an individual came up and slapped an 
offensive note on the window where she was dining and the 
person ran.
    Our deputies--one of them pursued him. The rest of the 
deputies stayed to protect the judge. It is a sad situation 
that people can write such notes, but there were deputies on 
the scene and they were there to protect the judge, as she has 
been everyday since February 28th of this year. Again, we must 
keep ever vigilant and ready. With threats against the 
judiciary on the rise, it is vitally important that we all work 
together to maintain a safe and secure environment for our 
justice system.
    I would be pleased to respond to any questions you may 
have, sir.
    [The prepared statement of Mr. Widup appears as a 
submission for the record.]
    Senator Sessions. Thank you very much, Marshal.
    Judge Samuel Alba has served as a United States Magistrate 
Judge in the District of Utah since August of 1992 and has been 
Chief Magistrate Judge since 2003. Prior to his appointment, he 
was a shareholder in Prince, Yates and Gelzoller from 1987 to 
1992, and was first assistant and chief of the criminal section 
with the United States attorney's office from 1980 to 1987 and 
worked on criminal defense matters both at a private firm and 
at the Federal public defender's office in Phoenix, Arizona, 
from 1972 to 1980.
    I should have asked my colleague--
    Senator Kyl. Where did he graduate from?
    Senator Sessions. --where did he graduate from law school. 
He got his undergraduate degree from Utah State University and 
his law degree from Arizona State University, Tempe, Arizona.
    Senator Kyl, what comments do you have?
    Senator Kyl. Well, Mr. Chairman, that is not my alma mater, 
but it is a fine law school. I welcome Sam here today.
    Thanks, Sam, for being here.
    Senator Sessions. Judge Alba.

STATEMENT OF SAMUEL ALBA, CHIEF UNITED STATES MAGISTRATE JUDGE, 
             DISTRICT OF UTAH, SALT LAKE CITY, UTAH

    Judge Alba. Mr. Chairman, Senator Kyl, thank you for the 
opportunity to appear before this Committee today and offer 
some comments. I know that my statement pales by comparison 
with the tragic events of the Lefkow family. I make it, 
however, to demonstrate how the United States Marshals Service 
fails to provide adequate resources when situations are 
presented which impact judicial security at home.
    Even with my local Marshals Service marshal's concern, 
headquarters in Washington was non-responsive or is 
inconsistent in its response to these requests. It has rigid 
procedures, some unknown to the judiciary, in place which only 
exacerbate the situation.
    For the last few months, I have been conducting preliminary 
proceedings in a case involving 12 members of a violent white 
supremacist criminal organization primarily within the Utah 
State prison system. Twice in the last few months, I have been 
notified by members of the United States Marshals Service and 
FBI representatives that credible threats have been made 
against the female African American Assistant United States 
Attorney assisting with the prosecution and another prosecutor.
    I have conducted a number of proceedings where I have had 
these defendants in front of me. The first time, I brought them 
in in three separate groups--my hearing is quite small and that 
is all that I could accommodate--to warn them that this would 
not be tolerated. The second time, I had to borrow Judge 
Benson's ceremonial courtroom to accommodate all 12 of the 
defendants in court for this proceeding.
    It was at that time that I seated them in what is usually 
reserved for the press, in the press box, for control purposes. 
Each of the defendants had two deputy marshals or prison 
security officers assigned to them, plus a third officer who 
was stationed nearby. These are violent individuals.
    The courtroom was full with many of the defendants' family 
members and friends seated in the audience. I imposed certain 
restrictions on them which implicated their ability to continue 
visits with their families, and it implicated the families as 
well. After being told of these new restrictions, the defendant 
seated closest to the bench stood up and shouted objections and 
obscenities to me.
    I ordered the United States deputy marshal who was closest 
to him to put him down in his seat. This defendant then spit 
into the face of the deputy marshal who was trying to carry out 
my order. Almost instantaneously, at least four other 
handcuffed, shackled defendants leaped to their feet, spewed 
profanity-laden protests, spat, kicked and scuffled with the 
United States marshals and other court security officers.
    A deputy marshal, fearing for the safety of a female 
defense attorney who was seated between two of these 
defendants, lifted the woman over the wall separating the press 
box from the bench. The scuffle went on for a couple of 
minutes, until deputy marshals and other security personnel 
were able to get the defendants under control. I consider this 
a very serious threat. They were trying to get at where I was 
on the bench in a direct response and immediate response to my 
ruling.
    As a result of these actions, within the next couple of 
days I had a meeting with investigators from the United States 
Marshals office and the judicial security inspector. I advised 
them of my concern for my safety and for my family's safety. 
They informed me at the time that both Assistant United States 
Attorneys who were the subject of these threats were receiving 
United States Marshal protection details, and both of them, 
through the Department of Justice, had also had home intrusion 
security systems installed in their homes.
    I requested the inspector to go to my house and speak with 
my wife. He advised her that the United States Attorney's 
office had identified between 125 to 150 sympathizers of this 
criminal organization on the outside and gave several 
suggestions for protecting our home and our family, including 
setting up a security system.
    Within a couple of days, I made that specific request of 
the marshal and of my clerk to seek some funding to accomplish 
that. I was advised that none was available. The marshal had 
contacted headquarters and they had told him that under the 
threat matrix, I did not qualify for a detail, and I also did 
not qualify for any home security system to be provided for me 
at home. In desperation, my wife and I turned to the local 
authorities, who expressed greater concern and to this day they 
send individual patrols into our neighborhood every evening and 
patrol through our street.
    The impact on my family was intense. Within a few days of 
this incident occurring in court, I had to travel out of State 
to attend a meeting of the Defender Services Committee. The 
first night I was gone, my wife and son were alone. Our dog was 
insistent late in the evening. She went to the back door and 
let him out. He stayed out for about 30 minutes, barking. 
Finally, he came back into the house. The rest of the night, my 
wife was petrified.
    We have been to our son's elementary school and notified 
the principal and the teacher of concerns that we had. They 
were aware through the newspaper and other media stories of 
what was going on, and this heightened their concern as well. 
As a result of these threats, we have had to install a system 
which cost us in excess of $4,000 in our home.
    Unbeknownst to me until this month, a fellow United States 
magistrate judge in the District of Maryland had received a 
temporary home security system from his district marshal's 
office after the marshals had detected not an overt threat, but 
a series of signs that he may be targeted. That occurred in the 
fall of 2004, just a few months before my request for a 
temporary home alarm system. That request reportedly was 
approved by the marshals headquarters office that had 
disapproved the request from my district marshal.
    Mr. Chairman, I ask that you help Federal judges be safe 
and secure both at the courthouse and in our homes by providing 
oversight so that the Marshals Service will have the resources 
and staff necessary to fully provide the judicial protection 
for which they are statutorily responsible.
    Thank you for the opportunity to appear before the 
Committee today.
    [The prepared statement of Judge Alba appears as a 
submission for the record.]
    Senator Sessions. Thank you, Judge Alba, for those comments 
that I think do indicate the seriousness of the issue with 
which we are dealing. It is absolutely critical that our legal 
system function, and when that system is threatened by groups 
of people who are willing to utilize violence against the very 
system itself, the integrity of our Government, our laws and 
our authorities that enforce the law, then we are confronted 
with a challenge we cannot fail to meet. We just have to meet 
it.
    I have been in Iraq and talked to judges there, and when 
you know the daily threat they are under, you know what that 
kind of violent threat can do to a legal system and how hard it 
is to conduct one under those threats. We have to do whatever 
is necessary to protect our people and to prosecute, detain and 
lock up those who would violate the system. I couldn't be more 
convinced of that.
    I have a statement from Senator Russ Feingold for the 
record and I will, without objection, make that a part of the 
record.
    Marshal Widup, you are there in the courthouse and you deal 
with the Federal judges. You indicated that you had a good 
relationship. It appears that in Utah and in Judge Roth's 
circuit, they don't feel as comfortable with it. What do you do 
that works?
    When I was United States Attorney, there was a court 
security committee, and it met and worked, although it wasn't 
always pleasant. Usually, the judges wanted to do A and the 
marshal wanted to do B. I took the side of the marshals and it 
wasn't much longer that I didn't get any notice of the 
meetings. So the judges and the marshal went at it, presumably, 
without my moderation of the discussion.
    But it would appear to me that there has been some tension 
for some time, so what have you done in your district to try to 
alleviate that?
    Mr. Widup. Thank you for your question, Mr. Chairman. We do 
still have the court security meetings and those tensions still 
do exist at different times. There is a balance in Chicago, as 
in our other courthouses, that we have to strike, which is the 
public's access to the Federal courts and the security of the 
facility itself. That causes difficult decisions at different 
times as far as how do we restrict the public's access in 
entering the courtroom.
    In our particular case, we have a screening point that is 
set up on the first floor of the building at which individuals 
entering the courthouse was be screened. They must be x-rayed 
and they must show identification to enter the building.
    Senator Sessions. Could I just interrupt you a little bit?
    Mr. Widup. Yes.
    Senator Sessions. Without getting into the details of that 
system, which I think in the courthouse I used to practice in 
in Mobile, Alabama, is pretty good, I guess my question is what 
do you do to communicate with the judges? How does that 
committee work?
    If you get a request as Judge Alba had for security, how do 
you respond? When do you have to go to Washington and how does 
it work? Are they happy in the Northern District of Illinois or 
would your judges like to see more support from the Marshals 
Service?
    Mr. Widup. I am sure our judges would like to see more, 
particularly in light of the recent tragedy involving Judge 
Lefkow and her family, but we do communicate, as with anything. 
The chief judge communicates with me directly on a frequent 
basis. I have a judicial security inspector who meets with all 
of the judges when they have an issue that they need to speak 
to him about. I have addressed the judges as a group and 
individually, both in the district and in the circuit.
    We also have a deputy marshal assigned to each judge as a 
contact person for that judge. In the event that that judge 
notices anything that occurs in their courtroom that they find 
to be out of the ordinary, whether a deputy is present or not, 
that liaison between the deputies and those judges continued 
everyday and that particular deputy tries to keep the judge 
informed.
    But, Mr. Chairman, we do have the press of a huge prisoner 
population in our district, as we do in many other districts, 
and this causes conflict at times with the judiciary in the 
sense that courts get backed up. And we have a practice in the 
Northern District of Illinois that we will have one deputy 
marshal or one of our hired contract guards to each in-custody 
defendant that we produce in court, plus an additional deputy.
    Senator Sessions. So that is three for every defendant?
    Mr. Widup. No. We call it one plus one. If we have five 
defendants, we will have at least five deputies on the 
defendants and a sixth deputy in there as well. Now, many times 
we have more, depending on the severity of the offender, the 
offense, and frankly the unrest of the crowd.
    But when we have these proceedings like this and we get 
backed up, we communicate to the judges. And, thankfully, in 
Chicago our judges will work with us and they understand that 
there may be a delay in the next court proceeding because we 
have to assign more deputies to an earlier proceeding. But this 
is again done with constant communication between us and the 
judges.
    But there are breakdowns that occur. Judges get backed up 
and they get irritated, but fortunately for us we do 
communicate with them and we try to address each of their 
issues. And they are not shy at all about picking up the phone 
and letting me know.
    Senator Sessions. When you do have a threat that is more 
unusual, you have advanced notice of that and you staff that 
courtroom appropriately, do you not?
    Mr. Widup. Yes, we do.
    Senator Sessions. I mean, that is the system for doing 
that.
    Marshal Reyna, have you ever dealt with what they call a 
stun belt? Has that ever been considered in the Marshals 
Service for a violent criminal?
    Mr. Reyna. The answer is yes, and I will let Marshal Widup 
at the district level explain that.
    Senator Sessions. All right. Apparently, you can't shackle 
a prisoner, under the court rulings, in front of the jury 
except in the most extreme circumstances. And if you know you 
have a violent person that could be dangerous to the marshals 
and the judges and everyone, I understand there is a device 
called a stun belt that could be put on them under their 
clothes.
    Mr. Widup. Yes, Mr. Chairman, we do have those in the 
Marshals Service and we do have them in the Northern District 
of Illinois.
    Senator Sessions. Have you used it?
    Mr. Widup. No, we haven't. It is an involved process, with 
the final part of it being the defendant has to agree to wear 
the stun belt in order to use that.
    Senator Sessions. I thought you might say something like 
that. The reason I learned this, Senator Kyl, is because in 
looking at the complaints against Justice Janice Rogers Brown, 
the California Supreme Court ruled eight to one that a stun 
belt worn under the clothes, not visible to the public, by a 
very violent criminal was unconstitutional or something. They 
reversed the conviction over that defendant having worn it. She 
dissented it, and they blame her for being an extremist. But I 
think this was before the killing that we heard about this 
morning and before the Atlanta killing, and I think maybe we 
need to review that State court decision because it seems to me 
that could be a help.
    My time is up.
    Judge Roth, we are delighted to have you here. I am sorry I 
didn't get to address any questions to you, but we admire your 
service very much.
    Senator Kyl, thank you for your leadership here. Senator 
Kyl is a thoroughgoing lawyer and practitioner in courts for 
many years, including the Supreme Court of the United States, 
and he cares about these issues very much.
    Senator Kyl. Well, thank you, Senator Sessions, and let me 
begin by saying that in the Arizona Federal court system I am 
aware that there is a very close relationship between the 
judges and the marshals. They meet together frequently. That is 
the way it should be. I know they have a lot of confidence in 
each other. The judges certainly have a lot of confidence in 
the marshals there. But there are incidents around the country 
that suggest that all is not well, some of which has been 
testified to here today.
    Mr. Reyna, I would like to give you an opportunity to 
respond to some of the things that were said after your 
testimony to advise us what you think the proper response to 
those points is.
    Mr. Reyna. Thank you, Senator Kyl. The Marshals Service 
conducts many missions that it has been tasked by Congress. 
There is no doubt that the most important mission is to protect 
the judicial process. And we say protect the judicial process 
and the integrity of that process because not only do we have 
the responsibility of protecting the over 2,000 Federal judges 
that we are responsible for, but we also have the 
responsibility to protect the approximately 5,500 prosecutors 
in those courts, the jurors, the witnesses and other members of 
the court family.
    So what happens in every district is an extreme amount of 
coordination on a daily basis, and we appreciate the patience 
and the hard work that the judges at the district level do each 
single day so that we are able to adequately address their 
needs.
    One of the things that does occur, as Marshal Widup was 
pointing out, is that there are some stress factors that the 
Marshals Service will experience. For instance, any new law 
enforcement initiative in a certain region of the country will 
create a different workload within the Marshals Service.
    For example, in Arizona we received a letter from the 
supervisor of ICE indicating that 500 agents would be added to 
their ranks to support their mission along the southwest 
border, which is obviously very needed. Well, we certainly 
appreciated that heads-up, so to speak, but it also indicated 
to us that it would require, obviously, additional resources to 
deal with the already difficult situation on the southwest 
border. So that requires--
    Senator Kyl. May I just interrupt you? I think that one of 
the questions here is are you asking for adequate resources. If 
there are inadequate, whose responsibility is it to ask for 
more? And, secondly, is there any specific response to what you 
have heard here today with respect to--and I will be very 
specific--the criticisms of the Marshals Service?
    Mr. Reyna. Senator Kyl, certainly we always request that 
the Congress support the President's budget. Over the last five 
fiscal years, the President's budget, had it been fully funded 
as requested, we would have achieved an additional 462 
positions that are vitally needed in every district and in 
every area of the Marshals Service.
    Regarding the criticism and the concern of communication, a 
lot of the communication, as you indicated from your past 
experience, happens at the local level through the various 
committees, through the various meetings that happens sometimes 
one-on-one with the judges in each individual court and the 
Marshals Service.
    At the national level, we discuss a lot of the issues, some 
formally through the Security and Facilities Committee, which 
is responsible and works with us on all issues involving 
facilities and security in those facilities. In addition to 
that, there are other discussions that occur on a daily basis 
between the Administrative Office of the U.S. Courts and many 
of the other operational matters, including the administrative 
necessities that have to be undertaken.
    We certainly support the issues and the areas that Judge 
Roth has articulated as far as some of the regulatory changes 
that need to be made so that we can better protect the 
judiciary and give us those necessary tools. She has 
articulated those. We support those.
    There are other areas that we also have undertaken to 
ensure that we timely assess any threats that come into the 
judiciary, and we assess them pursuant to a process that we 
have in place and responds to Magistrate Alba's concerns. One 
of the things that I would like to articulate regarding 
Magistrate Alba's comments is that every threat assessment in 
every district has to be handled by the local marshal. It is 
handled also in consultation with not only the person that 
received the threat, but also the Security and Facilities 
Committee.
    Depending on the threat level and the type of threat that 
it is, where it is one that is perhaps very direct, maybe not 
overt, or no threat at all, is what is going to make the 
determination. The Marshals Service does not have the funding 
up until recently to support full-time security alarm systems. 
We are very pleased that that has occurred because it will 
allow us to enhance off-site security, which is an issue of the 
Administrative Office of the U.S. Courts and the entire 
judiciary.
    In the case involving Magistrate Alba, in our conversation 
when I learned about this matter with Marshal Anderson from the 
District of Utah, he indicated that the matter had been 
resolved at the local level and there was no further request of 
involvement from headquarters on that matter.
    One of the things that I want to articulate here today, 
Senator Sessions and Senator Kyl, is that we certainly 
encourage all Federal judges to allow us to exercise our 
ability to protect the judges, to report all type of 
communications, whether it be perceived inappropriate or any 
area that they feel uncomfortable with. It is important that we 
address all the issues. It is important that we review all 
those potential threats, or perhaps concerns. We would rather 
address hundreds of concerns that turn out to be nothing than 
fail to address one that was not brought to our attention.
    Senator Kyl. Thank you. Mr. Chairman, I would like to ask 
one follow-up question of Judge Roth. There is a suggestion 
that legislation may be required to better reflect the views of 
judges. That is obviously a last resort here. At least it seems 
to me to be a last resort. We ought to be able to have 
structures in place in which judges and marshals can visit 
together and identify the needs and have it properly followed 
up.
    What is your view of that?
    Judge Roth. I agree it is a last resort. I have been Chair 
of the committee for five-and-a-half years. I have had numerous 
discussions with the Attorney General and with Mr. Reyna over 
our need to help determine what is needed for judicial 
security.
    We have no progress to report in this effort. We still 
don't know how the staffing for judicial security is arrived 
at. We don't know, that having been determined, whether that is 
being fulfilled. We do know across the country that marshals 
from the districts are confidentially reporting to us--they 
will get fired if they do it publicly, but they are reporting 
to us what their staffing patterns are, how those staffing 
patterns are going down in recent years.
    I know of one district where, in 2002, there were a number 
of--in the 60s--deputy marshals that should have been there. 
There were about eight less that were actually there. They were 
forecasting for 2005 that there would be in the high 80s 
needed. In 2005, they have 50-some.
    And how is the gap being made up? In two ways. Number one 
is by contract prison guards, deputy sheriffs, local policemen 
who are brought in on a daily contract basis to help handle 
prisoners. The Inspector General of the Department of Justice 
has just come out with a report very critical of this program 
that there is inadequate training and there is inadequate 
background of these contract guards. We hear reports from local 
judges that these guards are falling asleep in the courtroom 
because they have been working all day at their county or State 
job and then they come in. We find this unacceptable.
    Another way that the gap is being filled is by not doing 
certain requirements that deputy marshals should be doing, such 
as being present in the courtroom when any defendant, whether 
that defendant is in custody or not in custody, is in the 
courtroom. In criminal cases, defendants can be dangerous. When 
you are sending them to jail, their families can create 
problems and we need to have at least one deputy United States 
marshal in the courtroom during a criminal proceeding. Director 
Reyna is aware of this. He has supported this position, but the 
Marshals Service is not producing the deputy marshal staffing 
to fulfill this function.
    The courts pay for court security officers. They are 
supervised by the Marshals Service. We pay for them. We find 
more and more around the country that these court security 
officers are being used for functions that are deputy marshal 
functions, such as prisoner guarding which the court security 
officers are not trained for.
    These are a few particular, specific examples that we see 
of the results of lack of funding. We feel that we have enough 
concrete examples that we should be able to participate in 
determining what is needed for judicial security and whether 
that standard is actually being met. Having failed to get it 
from our conversations with the Department of Justice and the 
Marshals Service, we are turning to you saying please help us.
    Senator Kyl. I appreciate that. Let me just conclude by 
saying that throughout the entire criminal justice process at 
the Federal level, and also at the State level in States like 
mine, the problem of illegal immigration has put a huge burden 
on both the Federal and the State government. Nothing is funded 
adequately. There isn't adequate courtroom space, sufficient 
judges, clerks, prosecutors, public defenders, marshals, 
detention space, transportation opportunity, or anything else. 
The situation is the same in our State court systems, 
especially in those counties that are along the border.
    Ultimately, this is the responsibility of the Congress. 
And, Mr. Reyna, if you are correct, there would be 462 
additional positions had Congress funded pursuant to the 
President's budget. Then that responsibility lies with the 
Congress. I think it is important that this Committee document 
the information that we have received here and before passing 
legislation that simply puts into practice the custom of 
getting advice from judges, we ought to look at our 
appropriations process and short-circuit the whole proposition.
    Every one of these areas needs additional funding. Everyone 
understands that and it is a matter of prioritization. But when 
we hire an additional 1,000 Border Patrol agents, for example, 
we are going to get a certain number of additional criminal 
defendants in court and the tale of that initial commitment is 
going to be felt throughout the entire system. That is just one 
of the areas, I appreciate, but at least in my area it is what 
is driving the need for more resources throughout the entire 
system. Our area is the fastest growing in terms of need, 
precisely because of that phenomenon.
    I am amazed that the Marshals Service is able to do as well 
as it does, and again I want to express my appreciation, as I 
know the judges do, too. But we have got to do better and I 
think this hearing has helped to highlight that.
    Senator Sessions. Senator Kyl, I am going to offer for the 
record, if there is no objection, the statements of Senator 
Durbin, the Inspector General of the Department of Justice, 
Glenn Fine, and Senator John Cornyn.
    I am being called to a mark-up where we need a quorum in 
the HELP Committee. I would love to turn the chairmanship over 
to you, and you will do so ably.
    Senator Kyl. Unless there is anything else from the 
witnesses, I have nothing else.
    Senator Sessions. Judge Roth, you noted that there is a 
crisis and we have a dysfunctional relationship here. I 
believe, Mr. Reyna, that is something that the courts and you 
need to work on. We have just got to have that kind of 
communication. That is important. You need to listen to the 
requests of the courts, and you may not be able to fulfill them 
all, but there should be able to be a circumstance in which 
requests are made clearly and that you respond, recognizing 
that in the huge system that you have, the whole United States, 
there will be glitches that don't always go the way you would 
like.
    I will just make this observation which I think is a fact 
and is a danger for the Treasury of the United States, and that 
is we cannot, judges or anyone else, U.S. Attorneys, staff the 
Marshals Service for the five most busy days in a court's life 
and those personnel are then not utilized for 300 days of the 
year. They don't really have enough work to do. The stress will 
be on you, the individual marshals, the head marshal in 
Washington, to try to be able to draw from other districts.
    When we had big cases in my small district of the Southern 
District of Alabama, deputy marshals came in to help handle 
those cases and supplement the people there when maybe there 
was a down time in their district, but stress in our district. 
It is really hard to do that, but I think if you continue the 
trend to be flexible to respond to what Judge Alba is talking 
about--presumably, you eventually did get the alarm system you 
needed. Is that correct?
    Judge Alba. I did, but I had to pay for it myself.
    Senator Sessions. And you indicated that the money has been 
now appropriated for that, Mr. Reyna?
    Mr. Reyna. Yes, sir.
    Senator Sessions. So in the future, a magistrate judge 
would be able to get that system put in if he had a real 
threat?
    Mr. Reyna. The $12 million has been received. We will be 
working with the Administrative Office of the U.S. Courts to 
develop a process by which to address those matters of off-site 
security, and specifically alarm systems.
    Senator Sessions. Well, I think when you have got a family 
and you have got a group of people that actually acted in court 
as he said they did, that indicates to me that these people are 
capable of killing somebody and we have to be responsive to 
that. So it is a tough business, and I think, as Senator Kyl, 
we ought to look at the number of people you have, but be lean. 
We don't have any money to waste, do we, not with the deficit 
we have got?
    So we want you to be effective in utilizing the resources, 
and I think from what I am hearing from this discussion today 
we need to make sure that we analyze your next appropriation 
and see if we can get you some more people.
    Judge Roth or anyone else, do you have anything to add 
before we adjourn?
    Judge Roth. Could I, Mr. Chairman? I would appreciate it. 
Let me add two things. The shortfall in Marshals Service 
staffing appropriations reflects what the OMB has presented to 
the President. It does not necessarily reflect what the 
Marshals Service at the beginning sad was necessary.
    Senator Sessions. Right.
    Judge Roth. That figure is often, I think, inevitably cut 
down by the Department of Justice, and then cut down again by 
OMB.
    Senator Sessions. Well, I understood Mr. Reyna to say that 
the President actually requested more of Congress than we gave 
him. Is that correct?
    Mr. Reyna. That is correct, Senator.
    Senator Sessions. And that is the third cut.
    Judge Roth. The President requested less of Congress than 
the Marshals Service really needed, and we want to know what 
the Marshals Service really needed.
    Senator Sessions. Or what they wanted.
    Judge Roth. Well, we want to know if they needed it, and 
from the shortfalls we are seeing, some of it was urgently 
needed.
    We are also concerned about intelligence analysis by the 
Marshals Service. Are they really assessing threats in the way 
that threats should be assessed? You need protection in many 
cases where there is not a direct threat on a judge. In fact, 
the judges have been assassinated in no case actually received 
a direct threat, and we feel that the Marshals Service's 
analysis of intelligence needs to have a more intricate scope 
in the present day of terrorist threats.
    We are concerned that they are operating under the old 
system. Unless you get a direct threat, you don't get anything, 
and our concern in Judge Alba's situation was that he fell 
within that category when I think very definitely he did need 
protection.
    Senator Sessions. Well said. Thank you for an excellent 
discussion. You have raised a very important point. The rule of 
law is central to American freedom and prosperity, and we 
cannot allow it to be eroded by violence and threats in the 
courthouse.
    Thank you.
    [Whereupon, at 10:19 a.m., the Committee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T2222.001
    
    [GRAPHIC] [TIFF OMITTED] T2222.002
    
    [GRAPHIC] [TIFF OMITTED] T2222.003
    
    [GRAPHIC] [TIFF OMITTED] T2222.004
    
    [GRAPHIC] [TIFF OMITTED] T2222.005
    
    [GRAPHIC] [TIFF OMITTED] T2222.006
    
    [GRAPHIC] [TIFF OMITTED] T2222.007
    
    [GRAPHIC] [TIFF OMITTED] T2222.008
    
    [GRAPHIC] [TIFF OMITTED] T2222.009
    
    [GRAPHIC] [TIFF OMITTED] T2222.010
    
    [GRAPHIC] [TIFF OMITTED] T2222.011
    
    [GRAPHIC] [TIFF OMITTED] T2222.012
    
    [GRAPHIC] [TIFF OMITTED] T2222.013
    
    [GRAPHIC] [TIFF OMITTED] T2222.014
    
    [GRAPHIC] [TIFF OMITTED] T2222.015
    
    [GRAPHIC] [TIFF OMITTED] T2222.016
    
    [GRAPHIC] [TIFF OMITTED] T2222.017
    
    [GRAPHIC] [TIFF OMITTED] T2222.018
    
    [GRAPHIC] [TIFF OMITTED] T2222.019
    
    [GRAPHIC] [TIFF OMITTED] T2222.020
    
    [GRAPHIC] [TIFF OMITTED] T2222.021
    
    [GRAPHIC] [TIFF OMITTED] T2222.022
    
    [GRAPHIC] [TIFF OMITTED] T2222.023
    
    [GRAPHIC] [TIFF OMITTED] T2222.024
    
    [GRAPHIC] [TIFF OMITTED] T2222.025
    
    [GRAPHIC] [TIFF OMITTED] T2222.026
    
    [GRAPHIC] [TIFF OMITTED] T2222.027
    
    [GRAPHIC] [TIFF OMITTED] T2222.028
    
    [GRAPHIC] [TIFF OMITTED] T2222.029
    
    [GRAPHIC] [TIFF OMITTED] T2222.030
    
    [GRAPHIC] [TIFF OMITTED] T2222.031
    
    [GRAPHIC] [TIFF OMITTED] T2222.032
    
    [GRAPHIC] [TIFF OMITTED] T2222.033
    
    [GRAPHIC] [TIFF OMITTED] T2222.034
    
    [GRAPHIC] [TIFF OMITTED] T2222.035
    
    [GRAPHIC] [TIFF OMITTED] T2222.036
    
    [GRAPHIC] [TIFF OMITTED] T2222.037
    
    [GRAPHIC] [TIFF OMITTED] T2222.038
    
    [GRAPHIC] [TIFF OMITTED] T2222.039
    
    [GRAPHIC] [TIFF OMITTED] T2222.040
    
    [GRAPHIC] [TIFF OMITTED] T2222.041
    
    [GRAPHIC] [TIFF OMITTED] T2222.042
    
    [GRAPHIC] [TIFF OMITTED] T2222.043
    
    [GRAPHIC] [TIFF OMITTED] T2222.044
    
    [GRAPHIC] [TIFF OMITTED] T2222.045
    
    [GRAPHIC] [TIFF OMITTED] T2222.046
    
    [GRAPHIC] [TIFF OMITTED] T2222.047
    
    [GRAPHIC] [TIFF OMITTED] T2222.048
    
    [GRAPHIC] [TIFF OMITTED] T2222.049
    
    [GRAPHIC] [TIFF OMITTED] T2222.050
    
    [GRAPHIC] [TIFF OMITTED] T2222.051
    
    [GRAPHIC] [TIFF OMITTED] T2222.052
    
    [GRAPHIC] [TIFF OMITTED] T2222.053
    
    [GRAPHIC] [TIFF OMITTED] T2222.054
    
    [GRAPHIC] [TIFF OMITTED] T2222.055
    
    [GRAPHIC] [TIFF OMITTED] T2222.056
    
    [GRAPHIC] [TIFF OMITTED] T2222.057
    
    [GRAPHIC] [TIFF OMITTED] T2222.058
    
    [GRAPHIC] [TIFF OMITTED] T2222.059
    
    [GRAPHIC] [TIFF OMITTED] T2222.060
    
    [GRAPHIC] [TIFF OMITTED] T2222.061
    
    [GRAPHIC] [TIFF OMITTED] T2222.062
    
    [GRAPHIC] [TIFF OMITTED] T2222.063
    
    [GRAPHIC] [TIFF OMITTED] T2222.064
    
    [GRAPHIC] [TIFF OMITTED] T2222.065
    
    [GRAPHIC] [TIFF OMITTED] T2222.066
    
    [GRAPHIC] [TIFF OMITTED] T2222.067
    
    [GRAPHIC] [TIFF OMITTED] T2222.068
    
    [GRAPHIC] [TIFF OMITTED] T2222.069
    
    [GRAPHIC] [TIFF OMITTED] T2222.070
    
    [GRAPHIC] [TIFF OMITTED] T2222.071
    
    [GRAPHIC] [TIFF OMITTED] T2222.072
    
    [GRAPHIC] [TIFF OMITTED] T2222.073
    
    [GRAPHIC] [TIFF OMITTED] T2222.074
    
    [GRAPHIC] [TIFF OMITTED] T2222.075
    
    [GRAPHIC] [TIFF OMITTED] T2222.076
    
    [GRAPHIC] [TIFF OMITTED] T2222.077
    
    [GRAPHIC] [TIFF OMITTED] T2222.078
    
    [GRAPHIC] [TIFF OMITTED] T2222.079
    
    [GRAPHIC] [TIFF OMITTED] T2222.080
    
    [GRAPHIC] [TIFF OMITTED] T2222.081
    
    [GRAPHIC] [TIFF OMITTED] T2222.082
    
    [GRAPHIC] [TIFF OMITTED] T2222.083
    
    [GRAPHIC] [TIFF OMITTED] T2222.084
    
    [GRAPHIC] [TIFF OMITTED] T2222.085
    
    [GRAPHIC] [TIFF OMITTED] T2222.086
    
    [GRAPHIC] [TIFF OMITTED] T2222.087
    
    [GRAPHIC] [TIFF OMITTED] T2222.088
    
    [GRAPHIC] [TIFF OMITTED] T2222.089
    
    [GRAPHIC] [TIFF OMITTED] T2222.090
    
    [GRAPHIC] [TIFF OMITTED] T2222.091
    
    [GRAPHIC] [TIFF OMITTED] T2222.092
    
    [GRAPHIC] [TIFF OMITTED] T2222.093
    
    [GRAPHIC] [TIFF OMITTED] T2222.094
    
    [GRAPHIC] [TIFF OMITTED] T2222.095
    
    [GRAPHIC] [TIFF OMITTED] T2222.096
    
    [GRAPHIC] [TIFF OMITTED] T2222.097
    
    [GRAPHIC] [TIFF OMITTED] T2222.098
    
    [GRAPHIC] [TIFF OMITTED] T2222.099
    
    [GRAPHIC] [TIFF OMITTED] T2222.100
    
    [GRAPHIC] [TIFF OMITTED] T2222.101
    
    [GRAPHIC] [TIFF OMITTED] T2222.102
    
    [GRAPHIC] [TIFF OMITTED] T2222.103
    
    [GRAPHIC] [TIFF OMITTED] T2222.104
    
    [GRAPHIC] [TIFF OMITTED] T2222.105
    
    [GRAPHIC] [TIFF OMITTED] T2222.106
    
    [GRAPHIC] [TIFF OMITTED] T2222.107
    
    [GRAPHIC] [TIFF OMITTED] T2222.108
    
    [GRAPHIC] [TIFF OMITTED] T2222.109
    
    [GRAPHIC] [TIFF OMITTED] T2222.110
    
                                 <all>

</pre></body></html>
